     HEARING BEFORE THE HOUSE COMMITTEE ON
                APPROPRIATIONS

      SUBCOMMITTEE ON THE DEPARTMENTS OF
         TRANSPORTATION AND TREASURY,
           AND INDEPENDENT AGENCIES

     UNITED STATES HOUSE OF REPRESENTATIVES

                  MARCH 12, 2003




                 PAMELA GARDINER
            ACTING INSPECTOR GENERAL
TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
Mr. Chairman and members of the Subcommittee, thank you for the opportunity
to appear today to discuss several forthcoming opportunities and challenges for
the Treasury Inspector General for Tax Administration (TIGTA) and the Internal
Revenue Service (IRS). A New York Times article reflected that, “The basic fact
of today is the tremendous pace of change in human life.” In the coming months,
TIGTA may be preparing for significant changes resulting from the potential
creation of a new, single Treasury Inspector General office and a new IRS
executive leadership team. The IRS-specific changes coincide with the recent
Department-wide changes resulting from the creation of the Department of
Homeland Security and the confirmation of a new Secretary of the Treasury.

Consolidating Treasury’s two Inspector General offices presents both
opportunities and challenges. A consolidation should ultimately result in
overhead savings by eliminating duplicate administrative and staff functions, and
would broaden both offices’ current responsibility and authority. Conversely, our
concerns with creating a single office are primarily two-fold:
      - will the effective date permit adequate time to implement the
          consolidation within current resource levels; and,
      - will a consolidation dilute the vigorous oversight the Congress
          mandated in creating TIGTA in 1999 to protect and improve the
          nation’s tax administration system, while appropriately addressing
          other Treasury activities?


With the appointment of a new Commissioner and the expected departures of
key executives, the IRS is in the midst of tremendous leadership changes.
During this transition, it is critical for the Commissioner to sustain the IRS’
reinvention momentum in modernizing its computer systems, protecting taxpayer
rights and privacy, and ensuring tax law compliance and enforcement while
providing superior customer service. Although the IRS continues to address
major management challenges, TIGTA’s assessment of these challenges has not
changed significantly from prior years. For example, modernizing technology has
been an ongoing IRS challenge. Despite improvements, the major
modernization projects continue to experience significant delays, cost increases,
management difficulties, and reductions in deliverables. Considering the amount
and sensitivity of the data the IRS is charged with protecting and the amount of
revenue it collects, the IRS also should remain vigilant to all opportunities to
enhance security of its employees, facilities, and information systems.

As I mentioned, the IRS needs to provide both effective tax enforcement and
superior customer service. These concepts are not mutually exclusive; the
challenge is to strike the appropriate balance. Recent compliance and collection
levels have shown a slight reversal of a downward trend, and customer service
continues to improve.
The IRS must also identify and implement solutions to other challenges. For
example, the IRS has historically faced a large and growing inventory of
delinquent tax accounts. IRS records indicate that from the end of FY 1996
through the end of FY 2002, gross accounts receivable due from unpaid taxes
rose from $216 billion to $280 billion. Since the IRS has stated that it does not
have enough financial and human resources to work all taxpayer accounts, it is
exploring the collection of certain tax debts through the use of private collection
agencies. While the IRS’ preliminary planning approach for the use of private
collection businesses has been good, it still needs to ensure taxpayer rights are
protected; private data is adequately secured; projects are appropriately
managed; and the backgrounds of contractor employees are adequately
investigated.

Mr. Chairman, I began these remarks quoting a piece from the New York Times.
Though it appeared 45 years ago, it seems equally applicable to our
responsibilities today. I would be happy to answer any questions you may have
at this time.

Attachment



management-per
formance-challeng
